Report No. D-2010-047           March 26, 2010




      Repair and Maintenance Contracts for
       Aircraft Supporting Coalition Forces
        in Afghanistan, Iraq, and Kuwait
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail
at:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
ACO                            Administrative Contracting Officer
AFFARS IG                      Air Force Federal Acquisition Regulation Supplement
                                   Informational Guidance
CFT                            Contract Field Team
CMP                            Contract Management Plan
DCMA                           Defense Contract Management Agency Ohio River Valley
FAR                            Federal Acquisition Regulation
QAR                            Quality Assurance Representative
QASP                           Quality Assurance Surveillance Plan
TSC                            Theater Sustainment Command
                                  INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON , VIRGINIA 22202-4704 


                                                                      MAR 2 6 2010




MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               ASSISTANT SECRETARY OF THE AIR FORCE FOR
                 FINANCIAL MANAGEMENT AND COMPTROLLER
               COMMANDER, DEFENSE CONTRACT MANAGEMENT
                  AGENCY

SUBJECT: 	 Repair and Maintenance Contracts for Aircraft Supporting Coalition Forces
           in Afghanistan, Iraq, and Kuwait (Report No. D2010-047)

We are providing this report for your review and comment. We considered management
comments on a draft of this report in preparing the final report. We conducted this audit
pursuant to Public Law 110-181, "The National Defense Authorization Act for Fiscal
Year 2008," section 842, "Investigation of Waste, Fraud, and Abuse in Wartime
Contracts and Contracting Processes in Iraq and Afghanistan," January 28,2008. We
considered management comments on the draft of this report in preparing the final report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. As a
result of management comments, we deleted Recommendations A.1.a and A.1.e and
renumbered Recommendations A.1.b, A.1.c, and A.1.d as A.1.a, A.1 .b, and A.1.c. The
1st Theater Sustainment Command comments were partially responsive to
Recommendation A.2. We request additional comments on Recommendation A.2 by
April 26, 2010.

If possible, please send a .pdf file containing your comments to audros@dodig.mil.
Copies of the management comments must contain the actual signature of the authorizing
official. We are unable to accept the ISignedl symbol in place of the actual signature. If
you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 312-664-8866).


                                             tbf~~(r
                                             Alice F. Carey
                                             Acting Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2010-047 (Project No. D2008-D000LH-0249.000)                 March 26, 2010


               Results in Brief: Repair and Maintenance
               Contracts for Aircraft Supporting Coalition
               Forces in Afghanistan, Iraq, and Kuwait

What We Did                                        These training and oversight deficiencies
We determined whether equipment repair and         constitute a weakness in internal controls.
maintenance contracts for aircraft supporting      Implementation of recommendations will
coalition forces in Afghanistan, Iraq, and         improve these deficiencies.
Kuwait were effective. To determine
effectiveness, we evaluated the efficiency of      What We Recommend
oversight controls and adequacy of training        We recommend the Commander, DCMA,
programs to ensure that DOD received services      strengthen the requirement for reporting and
it paid for. Specifically, we reviewed four task   tracking of rework, as well as require daily floor
orders awarded by the Air Force Contract Field     checks be performed and conduct site visits to
Team (CFT) Program for over $900 million.          augment existing oversight.
Although this is an Air Force program, the
Army is the primary customer.                      We also recommend that the Commander,
                                                   1st Theater Sustainment Command (TSC),
What We Found                                      coordinate with the Army Contracting
Defense Contract Management Agency Ohio            Command to determine whether alternative
River Valley (DCMA) has generally established      contract types would be more appropriate for
controls for monitoring CFT work sites.            the procurement of aircraft maintenance
However, more can be done to improve               services and determine if future acquisitions for
oversight. Specifically, improving the tracking    these services will exceed $1 billion and require
and reporting of rework, requiring floor checks    review by the Under Secretary of Defense for
be performed, and conducting site visits should    Acquisition, Technology, and Logistics.
provide DOD with reasonable assurance that
services acquired for repair and maintenance of    Additionally, we recommend that the
aircraft exceeding $900 million represented the    Commander, CFT Program Office, ensure that
best value to DOD. Further, the Army should        all project officers and QARs complete the
evaluate lower risk contract types to procure      required training, track the training of all project
aircraft maintenance services rather than using    officers and QARs, and update training to
time-and-materials contracts.                      include detailed methods for performing and
                                                   reporting floor checks.
In addition, the training program implemented
by the Air Force, Oklahoma City Air Logistics      Management Comments and
Center CFT Program Office (CFT Program             Our Response
Office) was not effective in preparing oversight   DCMA and the CFT Program Office comments
personnel to perform their duties. Specifically,   were fully responsive. The 1st TSC comments
15 of the 24 project officers and 9 of the         were partially responsive and require additional
20 quality assurance representatives (QARs)        comments. See the recommendations table on
interviewed did not receive training.              page ii.
Report No. D-2010-047 (Project No. D2008-D000LH-0249.000)               March 26, 2010

Recommendations Table
Management                    Recommendations               No Additional
                              Requiring Comment             Comments Required
Commander, Defense                                          A.1.a, A.1.b, A.1.c
Contract Management
Agency, Ohio River Valley

Commander, 1st Theater        A.2
Sustainment Command

Commander, Air Force,                                       B.1, B.2, B.3
Oklahoma City Air Logistics
Center Contract Field Team
Program Office

Please provide comments by April 26, 2010.
Table of Contents

Introduction                                                             1

      Background                                                         1
      Review of Internal Controls                                        3


Finding A. Oversight of Contract Field Team Program in Southwest Asia    5     


      Recommendations, Management Comments, and Our Response             8


Finding B. Contract Field Team Training                                 11 


      Recommendations, Management Comments, and Our Response            14 


Appendices
     A. Scope and Methodology                                           16 

     B. Prior Audit Coverage                                            18 

     C. Contract Field Team Program Overview                            20 

     D. Management Comments on CFT Reporting and Our Response           23 


Management Comments
     Air Force, Oklahoma City Air Logistics Center 

          Contract Field Team Program Office                            24 

     1st Theater Sustainment Command                                    27 

     Defense Contract Management Agency, Ohio River Valley              30 

Introduction
We determined whether equipment repair and maintenance contracts for aircraft
supporting coalition forces in Afghanistan, Iraq, and Kuwait were effective. To
determine effectiveness, we evaluated the efficiency of oversight controls and adequacy
of training programs to ensure that DOD received services it paid for. Specifically, we
reviewed four task orders awarded by the Air Force Contract Field Team (CFT) Program
for over $900 million. Although this is an Air Force program, the Army is the primary
customer. See Appendix A for a discussion of scope and methodology and Appendix B
for a list of prior audit coverage.

Background
We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires “thorough audits . . . to identify potential waste,
fraud, and abuse in the performance of (1) Department of Defense contracts, sub-
contracts, and task and delivery orders for the logistical support of coalition forces in Iraq
and Afghanistan; and (2) Federal agency contracts, subcontracts, and task and delivery
orders for the performance of security and reconstruction functions in Iraq and
Afghanistan.”

In response to the FY 2008 National Defense Authorization Act, the DOD Office of
Inspector General collaborated with the Inspectors General of the Department of State
and the U.S. Agency for International Development, the Special Inspector General for
Iraq Reconstruction, Auditors General of the U.S. Army Audit Agency and the U.S. Air
Force Audit Agency, and the Director of the Defense Contract Audit Agency to develop
the comprehensive audit plan for Southwest Asia. The audit plan expands beyond the
statutory mandate in the FY 2008 National Defense Authorization Act to include key
issue areas such as financial management, systems contracts, and human capital for
contract administration. This plan highlighted projects for each of the agencies and
identified equipment repair and maintenance contracts in support of Operations Iraqi
Freedom and Enduring Freedom as a DOD Office of Inspector General project.

Review of Equipment Repair and Maintenance Contract
We focused our audit on aircraft maintenance contracts with a place of performance in
Afghanistan, Iraq, and Kuwait. We judgmentally selected contract actions valued at
more than $5 million; this resulted in three task orders from Air Force contract
F34601-97-D-0425. Specifically, we selected task orders 0263, 0305, and 0345 for
review. To accurately assess oversight procedures, the team elected to incorporate
aspects of task order 0003 of the follow-on contract FA8108-09-D-0005 awarded in
January 2009. This is the current contract action in place at the sites we reviewed.
Table 1 reflects the dollar values associated with the task orders we reviewed.



                                              1

                               Table 1. Contract Actions

 Contract Number            Task Order            Award Amount        Actual Amount
                             Number
 F34601-97-D-0425              0263                $23,942,341          $221,253,521
                               0305                $26,904,000          $252,639,416
                               0345                $23,093,900          $274,403,600
 FA8108-09-D-0005               0003               $162,530,035           In process

The Air Force Oklahoma City Air Logistics Center CFT Program Office awarded
contract F34601-97-D-0425 to Raytheon Aerospace, LLC in July 1997. As a result of an
amendment to its certificate of incorporation, Raytheon Aerospace, LLC changed its
corporate name to Vertex Aerospace, LLC in June 2003. A later amendment to its
certificate of incorporation was made in February 2004, changing the corporate name of
Vertex Aerospace, LLC to L-3 Communications Vertex Aerospace, LLC. For the
purposes of this report, we will refer to the contractor as L-3 Vertex.

Contract Field Team Program
The Air Force Materiel Command CFT program performs organizational, intermediate,
and depot-level maintenance and modification of aircraft. A CFT is a group of contractor
maintenance personnel who are provided with Government-furnished tools or equipment,
workspace, and supplies to accomplish modification, maintenance, and repair efforts on-
site at operational Government locations worldwide. The CFT Program Office awarded
all contracts and task orders we reviewed. Although this is an Air Force Program, the
Army is the primary customer on the task orders reviewed. See Appendix C for details
on the CFT Program.

Federal and DOD Guidance
Federal Acquisition Regulation (FAR) Part 16.6, “Time-and-Materials, Labor-Hour, and
Letter Contracts,” states that a time-and-materials contract provides no positive incentive
to the contractor for cost control or labor efficiency. Therefore, appropriate Government
surveillance of contractor performance is required to give reasonable assurance that
efficient methods and effective cost controls are being used. The CFT contracts we
reviewed are time-and-materials contracts for the procurement of contractor labor to
repair aircraft and required materials.

Air Force Logistics Command Regulation 66-33, “Equipment Maintenance: Contract
Field Team Program,” states that CFT oversight is performed by personnel who are not
normally familiar with contracting procedures. This increases the necessity for unusual
management control by the administrative contracting officer (ACO) to ensure adequate
contract surveillance. The CFT Program Office delegated responsibility for contract
administration to the Defense Contract Management Agency Ohio River Valley

                                             2

(DCMA). Additional guidance specific to CFT contracts is provided in Air Force
Materiel Command Instruction 21-141, “Contract Field Team Program.” This Instruction
prescribes policy and establishes procedures to activities engaged in CFT management,
procurement, and contract administration. This guidance outlines production and
performance surveillance as the primary functions of DCMA.

DCMA Guidance
The DCMA Contract Management Plan (CMP) provides guidance to project officers and
quality assurance representatives (QARs) assigned to monitor contractor performance at
CFT work sites. The CMP identifies responsibilities of the project officers and QARs
and establishes methods for the surveillance of the contractor. Significant surveillance
methods in the CMP include performing floor checks, validating contractor billable
hours, and processing required monthly performance reports. See Appendix C for further
discussion of the CMP and DCMA roles and responsibilities.

U.S. Army Central Command
The U.S. Army Central Command developed a quality assurance surveillance plan
(QASP) to establish quality assurance measures for rotary-wing aircraft maintenance
activities located in Southwest Asia. The QASP states the QAR is responsible for
identifying the processes that require evaluation. It also states that the QAR is
responsible for validating the contractors’ work and establishing procedures that are in
compliance with the contract and performance work statement. The QASP also
establishes that the QAR will conduct monthly evaluations utilizing an internally
developed checklist that evaluates the contractors’ work performance based on the tasks
performed at maintenance locations.

Review of Internal Controls
We identified internal control weaknesses on contract oversight and training for the repair
and maintenance of aircraft and aircraft components supporting Operations Iraqi Freedom
and Enduring Freedom as defined by DOD Instruction 5010.40, “Managers’ Internal
Control (MIC) Program Procedures,” January 4, 2006. DOD Instruction 5010.40 states
that internal controls are the organization’s policies and procedures that help program and
financial managers achieve results and safeguard the integrity of their programs. The
Instruction also requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the adequacy of the controls.

We did not assess the individual internal control programs for the CFT Program Office
and DCMA. However, during our review of some key internal controls applicable to the
effectiveness of contractor oversight and training for the repair and maintenance of
aircraft, we identified control weaknesses. Internal controls on contract oversight and
training were generally in place; however, we did identify some control weaknesses
specific to the quality and timeliness of training and noncompliance with documented
oversight controls. We describe these issues of noncompliance and controls needing
improvement in our report. Implementing recommendations in this report will improve
the internal controls regarding the effectiveness of contractor oversight, as well as the

                                            3

quality and timeliness of training. We will provide a copy of the report to the senior
DCMA and Air Force officials responsible for internal controls.




                                             4

Finding A. Oversight of Contract Field Team
Program in Southwest Asia
Although controls are generally in place for monitoring contract performance at CFT
work sites in Southwest Asia, more can be done to improve the oversight and
surveillance of contractor operations. Specifically, improving the tracking and reporting
of rework hours; requiring floor checks be performed; and conducting site visits should
provide DOD reasonable assurance that services for repair and maintenance of aircraft,
exceeding more than $900 million to date, are operating efficiently, while also mitigating
risks of potential fraud, waste, and abuse of Government funds. In addition, the Army
should evaluate the use of alternate contract types with less risk to DOD.

Management of Aircraft Maintenance Program
The U.S. Army designated 1st Theater Sustainment Command (TSC) as the lead agency
responsible for aviation maintenance and logistic support of rotary wing aircraft in
Southwest Asia. The U.S. Army Central Command held this responsibility until
February 2009 when 1st TSC assumed this responsibility. Although 1st TSC assumed
this responsibility, the QASP and CMP developed under U.S. Army Central Command
remain in effect for the current task order. The command organizations in the U.S.
Central Command area of responsibility that require rotary wing aircraft support services
(the requiring activities) include the Combined Joint Task Force-101 in Afghanistan; the
Multi-National Corps-Iraq in Iraq; and the Coalition Forces Land Component Command
in Kuwait. For a complete description of the requiring activity oversight structure, see
Appendix C.

Improving Oversight Controls
DCMA has generally established controls for monitoring contractors at CFT work sites;
however, additional actions are required to ensure DOD has reasonable assurance that
task orders issued for repair and maintenance of aircraft are administered effectively.

Rework
DCMA did not require the regular reporting of rework and ensure that instances of
rework were appropriately billed. The CMP defines contractor rework hours as those
expended by the contractor redoing defective work in order to make the work acceptable.
The CMP provides the following guidance on rework:

      the project officer must track all rework by the number of hours and skill
       classification required to correct the discrepancy,
      the rework should be annotated on the “CFT-Report of Rework” form and signed
       off by the contractor and the Government representative,
      the “CFT-Report of Rework” form will be attached to the monthly project officer
       evaluation and sent to the Contract Administration Office, and
      DOD will pay for rework hours and material but the contractor may not charge a
       profit.
                                            5

DCMA officials responsible for contract administration stated that they did not require
project officers to complete and submit reports of rework. DCMA officials’ failure to
require and track these reports increases the risk of the contractor inappropriately
charging profit to DOD on rework repairs.

Floor Checks
The DCMA CMP states that project officers “should” perform daily floor checks to
validate contractor hours but does not make it mandatory. Furthermore, DCMA did not
provide guidance requiring the reporting of daily floor check results. We reviewed the
CMP and determined that daily floor checks are currently the most effective means in
place to verify the contractor’s billable hours. The contractor’s total weekly hours are
recorded on the certificate of service. The project officer’s signature on the certificate of
service certifies that the contractor’s time and attendance is reported accurately and to the
appropriate task. The CMP also states the amount of surveillance in this area should be
based upon the confidence that the project officer has with the contractor complying with
its time and attendance system. The CMP provides guidance on time and attendance
verification and states that:

          the contractor is required to maintain a daily employee sign-in roster, and
          the project officer should make daily floor checks to validate the time charged.

We interviewed, based on their availability, 24 of the 33 project officers in Afghanistan,
Iraq, and Kuwait via telephone or e-mail. Only 15 of the 24 project officers who
responded, or approximately 62 percent,1 stated that they performed floor checks daily.
DCMA does not provide guidance to project officers on how to conduct a floor check or
require the reporting of floor check results. Failure of DCMA to require daily floor
checks and provide guidance to the project officers on performing and documenting floor
checks reduces the probability of detecting inaccuracies in the billable labor hours
charged by the contractor to DOD.

Additionally, some of the project officers we interviewed stated that CFT duties were not
their primary job and that they lacked the time to conduct floor checks every day. The
Deputy Secretary of Defense issued a memorandum on August 22, 2008, stating that all
requiring activities will afford contracting officer representatives the necessary resources,
including time, to perform contract designated functions. DCMA should ensure that
requiring activity personnel designated as project officers have the appropriate amount of
time to conduct their oversight duties.

Defense Criminal Investigative Service previously investigated issues with contractor-
billed labor hours. L-3 Vertex allegedly submitted inflated claims for hours worked by
its employees and overcharged the U.S. Army for hours worked at Camp Taji, Iraq, from
about March 1, 2004, through about August 31, 2005. The Defense Criminal


1
    Judgment Sample percentage does not generalize to universe.

                                                     6

Investigative Service investigated and found evidence substantiating allegations that L-3
Vertex instructed its employees in writing to take 1.5 hours for lunch and bill the time to
the Government when the contract authorizes employees only half-hour lunches.
Pursuant to the terms of a settlement agreement filed with the District Court, Northern
District of Georgia, on December 4, 2008, L-3 Vertex paid the United States $4,000,000
to resolve allegations that it violated the False Claims Act.

Considering the criminal investigation results that indicated contractor employees were
submitting inflated claims for hours worked, and the risks we identified regarding rework
hours and floor checks, we concluded that controls regarding surveillance and oversight
need strengthening.

We concluded that mandatory floor checks and a standard format for reporting floor
check results should increase DOD assurance that these task orders are being
administered effectively.

Site Visits
DCMA officials did not conduct site visits to Afghanistan, Iraq, and Kuwait during a
4-year period (September 2005 until August 2009). The CFT Program Office delegated
the contract administration functions of ensuring contractor compliance with quality
assurance requirements to DCMA. DCMA has assigned an ACO, an Alternate ACO, a
Quality Assurance Specialist, a Contract Administrator, a Government Flight
Representative, and a Government Ground Flight Representative to administer the task
orders we reviewed. The memorandum of agreement between DCMA and the CFT
Program Office states that DCMA will visit active work sites and conduct oversight of
contractor performance. DCMA lacks sufficient assurance that the on-site surveillance
performed by project officers was adequate to ensure L-3 Vertex complied with its time
and attendance system in these locations. Conducting site visits more frequently may
improve contract administration and mitigate risk areas associated with a time-and-
materials contract. Since we completed our field work, DCMA officials did conduct a
site visit to Iraq and Kuwait in August 2009.

Alternate Contract Types
The Director of Defense Procurement, in a memorandum issued February 18, 2009,
stated that time-and-materials contracts are the least preferable contract type and agencies
should use these contract types for no more than 10 percent of the total contract value.
The current contract structure, 25 percent firm-fixed-price and 75 percent time-and-
materials, does little to mitigate risks to DOD. Although we did not evaluate the pre-
award decision to use a CFT contract, evaluating the use of alternate contract types with
less risk to DOD may be more effective than the current time-and-materials contract.

Additionally, DOD Instruction 5000.2, “Operation of the Defense Acquisition System,”
December 8, 2008, states that for acquisition of services estimated to cost more than
$1 billion, decision authorities shall notify the Under Secretary of Defense for
Acquisition, Technology, and Logistics of the proposed acquisition and seek approval for
it. We determined that the amounts expended on the task orders we reviewed combined

                                             7

with the amount awarded on the current task order was approximately $900 million. This
amount, combined with the estimated amount of the next option year ($208 million),
would result in exceeding the $1 billion threshold and require the approval from the
Under Secretary of Defense for Acquisition, Technology, and Logistics.

Conclusion
Time-and-materials contracts provide no positive incentive to the contractor for cost
control and labor efficiency. Appropriate surveillance of contractor performance is
required to give reasonable assurance that the contractor is operating efficiently and
effectively. DCMA, project officers, and QARs could increase surveillance on task
orders we reviewed by tracking and reporting rework, making floor checks mandatory,
and increasing the frequency of their site visits. In addition, using an alternate type of
contract that requires less oversight may be more effective for filling the requirements for
aircraft repair and maintenance in Afghanistan, Iraq, and Kuwait.

Recommendations, Management Comments,
and Our Response
Renumbered and Deleted Recommendations
As a result of management comments, we deleted Recommendations A.1.a and A.1.e and
renumbered Recommendations A.1.b, A.1.c, and A.1.d as A.1.a, A.1.b, and A.1.c.

Defense Contract Management Agency Comments
Resulting in Deleted Recommendations
The Executive Director, Defense Contract Management Agency Aeronautical Systems
Division, did not agree with draft Recommendation A.1.a, stating that the
recommendation is beyond the scope of their responsibility. The director stated that the
performance work statement defines the standards to monitor the contractor’s
productivity and effectiveness. The director also stated the customer develops the
standards and is currently revising the metrics for those standards. DCMA officials
further stated that they do not believe developing a standardized metric as a measure of
effectiveness is possible.

Additionally, the Executive Director, Defense Contract Management Agency
Aeronautical Systems Division, disagreed with draft Recommendation A.1.e, stating that
the recommendation is beyond the scope of their responsibility because the program
office and end user determine the need for automated controls. The director stated that
while automated processes may be beneficial at some locations, currently there is no
requirement for the use of automated systems at operational work sites, especially those
in combat zones.




                                             8

Our Response
The Defense Contract Management Agency comments are fully responsive. After
conducting additional audit work, we agree that the recommendations are beyond
DCMA’s scope of responsibility. We deleted the recommendations.

A.1. 	 We recommend that the Commander, Defense Contract Management
       Agency Ohio River Valley:

           a. 	 Require the tracking and processing of reports of rework hours and
                ensure that profit is not charged on rework;

Defense Contract Management Agency Comments
The Executive Director, Defense Contract Management Agency Aeronautical Systems
Division, agreed with the draft recommendation, stating they will require the submission
of rework by project officers and reemphasize this in the project officer and QAR training
conducted by the CFT Program Office. Estimated completion date February 15, 2010.

Our Response
The Defense Contract Management Agency comments are fully responsive to the draft
recommendation. No further comments are required.

           b. 	 Require floor checks to be performed and reported in a format that
                will increase oversight of contractor labor hour charging practices;
                and

Defense Contract Management Agency Comments
The Executive Director, Defense Contract Management Agency Aeronautical Systems
Division, partially agreed with the draft recommendation, stating that the DCMA CMP
already requires the performance of floor checks by project officers. The director stated
they will address floor check requirements during site visits and during annual CFT
conferences. Additionally, the DCMA ACO will request that the Defense Contract Audit
Agency perform floor check audits to increase the oversight of charges for labor hours on
the 60 percent of contracts that are time-and-materials. Estimated completion date
January 30, 2010.

Our Response
While Defense Contract Management Agency partially agreed with the draft
recommendation, we considered the comments fully responsive. No further comments are
required.

           c. 	 Conduct site visits to Afghanistan, Iraq, and Kuwait to augment
                existing oversight of requiring activities.



                                            9

Defense Contract Management Agency Comments
The Executive Director, Defense Contract Management Agency Aeronautical Systems
Division, agreed with the draft recommendation, stating that officials from the CFT
Program Office and DCMA visited Kuwait and Iraq from August 17 to
September 3, 2009, and have another trip scheduled to Afghanistan in the spring of 2010.

Our Response
The Defense Contract Management Agency comments are fully responsive to the draft
recommendation. No further comments are required.

A.2. 	 We recommend that the Commander, 1st Theater Sustainment Command,
       coordinate with Army Contracting Command to determine whether a more
       appropriate contract type could be used for the procurement of aircraft
       repair services and whether future acquisitions for these services will exceed
       $1 billion and require review by the Under Secretary of Defense for
       Acquisition, Technology, and Logistics.

1st Theater Sustainment Command Comments
The 1st Theater Sustainment Command Aviation Maintenance Officer in Charge partially
agreed with the draft recommendation, stating the current structure of the contract that
began on February 6, 2009, which uses 25 percent firm-fixed-price and 75 percent time-
and-materials, enables cost efficiency by giving the Government the flexibility to adjust
paid work hours to workload. Firm-fixed-price will be utilized to the maximum extent
possible, but it is difficult to predict maintenance in a warzone so the use of time-and-
materials is expected to continue. The officer in charge stated that if future acquisitions
occur that cause the contract to exceed the $1 billion threshold and require review by the
Under Secretary of Defense for Acquisition, Technology, and Logistics, 1st Theater
Sustainment Command will coordinate with Army Contracting Command.

Our Response
The 1st Theater Sustainment Command comments are partially responsive. We
determined that coordinating with the Army Contracting Command would be the best
way to determine the appropriate vehicle for procuring aircraft maintenance services.
The 1st Theater Sustainment command did not give a date for completion of this
coordination. We request that the Commander, 1st Theater Sustainment Command,
provide comments to the final report that include completion time frames for
coordinating and evaluating the type of contract vehicle used to procure aircraft
maintenance services.




                                            10 

Finding B. Contract Field Team Training
The CFT Program Office has initiated corrective actions to strengthen training for project
officers and QARs. However, we identified that some project officers and QARs did not
receive CFT-specific training. This occurred because the CFT Program Office did not
ensure project officers and QARs completed CFT training prior to receiving their
delegations. Additionally, we determined more detailed training specific to verifying
contractor hours billed should be included in CFT training programs. As a result, DOD
did not have reasonable assurance that contracted services for the repair and maintenance
of aircraft were executed efficiently and effectively.

CFT Training
CFT Program Office officials responsible for training have taken action to ensure project
officers and QARs receive training prior to assuming their CFT responsibilities. For
example, we reviewed two versions of the CMP, dated March 20, 2006, and
September 25, 2008. The first CMP version did not identify any training requirements
for project officers or QARs. The later version included new requirements for CFT
Phase I and Phase II training. In addition to the CFT Phase I and Phase II training,
DCMA and the CFT Program Office hold an annual CFT conference to provide
additional training to project officers and QARs.

CFT Program Office Phase I Training
Initially, CFT Phase I training was for both project officers and QARs. The CFT Phase II
training was for QARs only and tailored for the individual work sites. Because of recent
reviews, to include this audit, the CFT Program Office issued a memorandum on
April 15, 2009, requiring both project officers and QARs to take CFT Phase II training.
We compared the CFT Phase I training presentation to the project officer and QAR duties
listed in the CMP and the QASP. For additional information on the CMP and the QASP,
see Appendix C. We concluded that the Phase I Training presentation discussed several
valuable subjects including:

      contractor compliance with contract quality requirements,
      performance-based service acquisition guidance,
      performance work statements,
      measurable performance objectives,
      the QASP,
      contract surveillance methods and files, and
      general contract guidance.

Additionally, we noted some discrepancies in the CFT training and guidance. For
example, the CMP states the QAR is to prepare and implement a Government QASP and
submit it to the ACO for approval. However, the Phase I CFT training states that the




                                           11 

Multi-Functional Team2 develops and maintains the QASP and that QARs must perform
contract surveillance in accordance with the terms of the contract, its related performance
work statement, and the QASP. U.S. Army Central Command developed the QASP in
effect for the task orders we reviewed.

CFT Program Office Phase II Training
The CFT Program Office developed the CFT Phase II training using subjects suggested
in the Air Force Federal Acquisition Regulation Supplement Informational Guidance
(AFFARS IG) 5346.103, “Contracting Office Responsibilities,” dated August 2005. This
guidance also allows the contracting officer to tailor the training to fit the specific
acquisition. AFFARS IG 5346.103 did not include any procedures for verification of
labor hours claimed by the contractor on time-and-materials contracts, but it suggested
discussion of the potential areas of fraud, waste, or abuse, and contract payment
provisions. Subjects discussed in the Phase II training included general CFT contract
information; areas susceptible to fraud, waste, or abuse; high technical risk areas;
maintenance and submission of quality assurance surveillance documents; inspection and
acceptance of contract services; certification of receipt of services; and contract
administration.

DCMA CFT Annual Conference
DCMA and the CFT Program Office hold an annual conference for training and
disseminating current information to project officers and QARs. DCMA made its most
recent presentations to the project officers and QARs on March 4–6, 2008. Although not
all project officers and QARs attended the conference, DCMA requested that they review
the conference presentations. The conference provided information on surveillance and
highlighted duties of the project officers and QARs.

Training of Project Officers and QARs
The CFT Program Office did not ensure all project officers and QARs received CFT-
specific training. We interviewed project officers via e-mail or telephone conference at
the 26 sites located in Afghanistan, Iraq, and Kuwait. Specifically, we interviewed, based
on their availability, 24 of the 33 project officers assigned to monitor the CFT program at
these locations. We asked each project officer if he or she had received any training for
their duties. Fifteen of the 24 project officers interviewed (approximately 62 percent3)
stated that they had not received training.

In addition, we contacted 20 of the 26 assigned QARs in Afghanistan, Iraq, and Kuwait.
We asked each QAR whether he or she had received any quality assurance training
before or after becoming a QAR for the CFT contract. Nine of the 20 QARs interviewed


2
 The Multi-Functional Team consists of stakeholders responsible for a service acquisition and includes representatives
of the technical and procurement communities, other stakeholders of the service acquisition, as well as the contractors
who provide the services. Air Force Instruction 63-124, “Performance Based Services Acquisition,” dated August 1,
2005 describes the responsibilities of the Multi-Functional Team.
3
    Judgment Sample percentage does not generalize to universe.

                                                          12 

(approximately 45 percent4) stated that they had not received any quality assurance
training. We determined that project officers and QARs could have provided more
effective and efficient oversight if they had received the appropriate training prior to
assuming their duties.

Surveys Conducted by Other Organizations
The CFT Program Office also conducted two surveys assessing the skills and experience
levels of project officers and QARs in the field and concluded there were many
inexperienced personnel performing these duties, and that they may require additional
training. Although we did not validate those survey results, we agree that training needs
to be improved.

Tracking of CFT Training
Because many project officers and QARs we interviewed had not received CFT training,
we concluded that training also needed improved tracking to ensure that all personnel
needing the training receive it in a timely manner. A CFT Program Office official stated
that it is developing an information technology system that would enhance its ability to
track all the training required and received by project officers and QARs by task order.

Certifying Accuracy of Contractor Hours Billed
We identified an internal control weakness in training on verification and signature of the
contractor certificate of service. The CMP requires the project officer to validate and
sign the contractor’s weekly certificate of service. However, none of the training or
guidance we reviewed identified procedures to verify the accuracy of billable hours
submitted on the contractor certificate of service. The CMP states that “the amount of
surveillance in this area should be based upon the confidence that you [the Project
Officer] have with the contractor complying with their system.” The CMP also states
that the project officer “should make daily floor checks to validate the time charged.”
We concluded that the CMP and the training for project officers and QARs should also
detail methods for performing daily floor checks and for reporting the observations made.
See Finding A, page 6, for further discussion on floor checks.

Conclusion
We commend the CFT Program Office for initiating actions to address risk areas
regarding training of project officers and QARs; however, more action is needed to
further mitigate risk areas. We evaluated the training provided to project officers and
QARs by DCMA and the CFT Program Office. We concluded that project officers and
QARs were not all receiving training related to the CFT program prior to assuming their
oversight duties. As a result, task orders we reviewed may have not been administered
effectively. The Deputy Secretary of Defense issued guidance on August 22, 2008,
stating that service contracts require effective surveillance and the training of contract
officer representatives is critical. The Deputy Secretary of Defense requires trained and


4
    Judgment Sample percentage does not generalize to universe.

                                                    13 

ready contracting officer representatives prior to contract award. We concluded that this
includes project officers and QARs because they provide day-to-day oversight.

Additionally, we determined that updating the CFT training to include detailed methods
for validating contractor billable hours would improve the current training programs.
Implementing recommendations we make in this report should improve the training
provided to project officers and QARs as well as the overall oversight of these task
orders.

Recommendations, Management Comments,
and Our Response
B.		   We recommend that the Commander, Air Force Oklahoma City Air
       Logistics Center Contract Field Team Program Office:

       1. Ensure that all project officers and quality assurance representatives have
       completed the required Contract Field Team training prior to assuming their
       duties.

Air Force Oklahoma City Air Logistics Center Contract
Field Team Program Office Comments
The Director, CFT Program Office, agreed with the recommendation and stated that the
program office had attempted to obtain entry into the U.S. Central Command area of
operations for more than a year to train newly appointed project officers and QARs and
that they were first able to do so in August 2009. The director also stated that in
October 2009, the CFT Program Office held pre-deployment training of project officers
and QARs who were deploying to Afghanistan and that project officers and QARs
deploying to Iraq or Kuwait would receive pre-deployment training in December 2009.
Additionally, the director stated that a new information system was in development to
assist the CFT Program Office with tracking the training of project officers and QARS.
Further, the CFT Program Office would verify that all project officers and QARs had
completed their Phase I and II CFT Training.

Our Response
The Air Force Oklahoma City Air Logistics Center Contract Field Team Program Office
comments to the draft recommendation were fully responsive. No further comments are
required.

       2. Track training of all project officers and quality assurance representatives
       to ensure they received the required training prior to assuming their
       oversight responsibilities.




                                           14 

Air Force Oklahoma City Air Logistics Center Contract
Field Team Program Office Comments
The Director, CFT Program Office, agreed with the recommendation and stated that the
office policy was to not award new task orders until project officers and QARs completed
their Phase I and II CFT Training and the office would add this policy to Air Force
Materiel Command Instruction 21-141 next year. The director concluded that the
primary difficulty in maintaining trained staff results from personnel turnover of project
officers and QARs and believed that the new information system would provide an
effective tool for tracking personnel turnover and facilitating immediate training.

Our Response
The Air Force Oklahoma City Air Logistics Center Contract Field Team Program Office
comments to the draft recommendation were fully responsive. No further comments are
required.

       3. Update Contract Field Team training programs to include detailed
       methods for validating contractor hours billed.

Air Force Oklahoma City Air Logistics Center Contract
Field Team Program Office Comments
The Director, CFT Program Office, agreed with the recommendation and stated that they
will include detailed information on how to validate contractor hours billed in the Phase I
CFT Training.

Our Response
The Air Force Oklahoma City Air Logistics Center Contract Field Team Program Office
comments to the draft recommendation were fully responsive. No further comments are
required.




                                            15 

Appendix A. Scope and Methodology
We conducted this performance audit from July 2008 through October 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We did not evaluate pre-award decisions on the selected contracts and task orders.
However, we do discuss the possibility that using a different contract type might be more
effective to fill these requirements than improving oversight procedures on time-and-
materials contracts.

Our audit focused on aircraft maintenance contracts with places of performance in
Afghanistan, Iraq, and Kuwait. Specifically, we examined Air Force CFT time-and-
materials contract F34601-97-D-0425 and non-statistically selected for review task orders
valued at more than $5 million. The task orders selected were 0263, 0305, and 0345, and
covered periods of performance from September 23, 2005, to September 20, 2008.

Contract F34601-97-D-0425 expired during our audit; therefore, we expanded our review
to include task order 0003 of Air Force CFT contract FA8108-09-D-0005, which is the
follow-on contact now in operation in Afghanistan, Iraq, and Kuwait. We conducted a
survey of Government project officers and QARs for task order 0003 of contract
FA8108-09-D-0005 to determine if they received appropriate training and to gain an
understanding of current contract administration practices used for oversight of
CFT contractors. Additionally, we reviewed and evaluated the adequacy of training
presentations for Government project officers and QARs who were responsible for
oversight.

Use of Computer-Processed Data
We collected contractor reports produced by the contractor’s database, developed by
SAP AG, to identify supporting labor transactions. The reports listed time sheets for
labor hours incurred during work on CFT contract F34601-97-D-0425 and task orders
0263, 0305, and 0345. We obtained these accounting reports for each of 14 sample
invoices that we selected for review. However, we did not rely upon these contractor
reports for our audit conclusions, and we do not discuss our analysis of invoices and labor
transactions in this report.

Use of Technical Assistance
We obtained technical assistance from the DOD Office of Inspector General, Quantitative
Methods and Analysis Division in developing the sample design for our audit, and used a
two-stage random sample design. In the first stage, we selected a sample of invoices on
the contract task orders, and in the second stage, we selected a sample of supporting labor
documents to verify the labor hours on the sample invoices. Through analysis of the

                                            16 

invoices and labor documents and consultation with the Defense Criminal Investigative
Service, we determined that the review of these documents would not be sufficient to
detect any billing irregularities that originated in Afghanistan, Iraq, or Kuwait. As a
result, we did not use the sampling concepts for statistical projection in this report.




                                           17 

Appendix B. Prior Audit Coverage
During the last 5 years, the Government Accountability Office (GAO), the DOD
Inspector General (IG), and the Air Force Audit Agency (AFAA) have issued five reports
discussing time-and-materials contracts. In addition, during the last 5 years, the Defense
Contract Audit Agency (DCAA) has issued five reports discussing timekeeping
procedures and internal controls over contractor employee labor at L-3 Vertex.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DOD IG reports can be accessed at http://www.dodig.mil/audit/reports.
Unrestricted Air Force Audit Agency reports can be accessed at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41. DCAA audit
reports are not available, except by restricted distribution.

GAO
GAO Report No. 07-273, “Improved Insight and Controls Needed over DOD’s Time-
and-Materials Contracts,” June 29, 2007

DOD IG
DOD IG Report No. D-2006-010, “Contract Surveillance for Service Contracts,”
October 28, 2005

Air Force
AFAA Report No. F2008-0005-FC1000, “Contract Field Team Program Management,”
June 4, 2008

AFAA Report No. F2008-0002-FC1000, “Procurement of Contract Field Team
Services,” November 13, 2007

AFAA Report No. F-2008-0001-FC1000, “Management and Oversight of the Acquisition
of Services Process,” October 1, 2007

Defense Contract Audit Agency
DCAA Report No. 3531-2008N13500002 (Revised), “Report on Evaluation of the
Contractor’s Timekeeping Procedures (Floor Checks) at Oklahoma City, Oklahoma,”
September 26, 2008

DCAA Report No. 3531-2006N13010001, “Report on Testing Performed on Labor
System Internal Control Activities,” September 18, 2007

DCAA Report No. 3531-2007N13500002, “Report on Evaluation of the Contractor’s
Timekeeping Procedures (Floor Checks),” September 11, 2007




                                           18 

DCAA Report No. 3531-2006N13500001, “Report on Labor Floor Check and Review of
Timekeeping Procedures and Practices,” September 29, 2006

DCAA Report No 3531-2005N13500002, “Report on Labor Floor Check and Review of
Timekeeping Procedures and Practices,” June 5, 2006




                                      19 

Appendix C. Contract Field Team Program
Overview
CFT Program
The Air Force Materiel Command CFT Program performs organizational, intermediate,
and depot-level maintenance and modification of aircraft. A CFT is a group of contractor
maintenance personnel who provide modification, maintenance, and repair efforts on-site
at operational Government locations worldwide.

CFT Program Office
The Air Force Oklahoma City Air Logistics Center CFT Program Office is responsible
for negotiating and awarding the basic CFT contracts as well as managing CFT funding
actions. The CFT Program Office reconciles CFT funding actions against the Contract
Business Intelligence Service system, quarterly, to ensure CFT contract actions do not
exceed approved contract ceilings.

CFT Contract Administration
DCMA is delegated contract administration responsibility as specified in a memorandum
of agreement between DCMA and the U.S. Air Force in accordance with FAR Part 42,
“Contract Administration and Audit Services.” This responsibility is executed through an
ACO. The Oklahoma City Air Logistics Center CFT Program Office delegated DCMA
as the contract administration office responsible for the contract. The primary functions
include production and performance surveillance. DCMA approved the CMP to provide
general information and specific guidance to personnel assigned to monitor contractor
performance at CFT work sites.

Requiring Activity Oversight Structure
DCMA delegates requiring activity personnel to oversee the contract and ensure the
contractor is providing appropriate service. The primary customer in Iraq is the Multi-
National Corps-Iraq; in Afghanistan it is the Combined Joint Task Force-101; and in
Kuwait it is the Coalition Forces Land Component Command.

1st Theater Sustainment Command
The U.S. Army designated 1st TSC as the lead agency responsible for aviation
maintenance and logistic support of rotary wing aircraft in Southwest Asia. The U.S.
Army Central Command and Third U.S. Army previously held the responsibility for the
CFT Program until February 2009 when 1st TSC assumed responsibility for the program.

Theater Project Officer
The theater project officer receives reports from each country evaluating contractor
performance and forwards those reports to 1st TSC. The theater project officer may also
perform the functions of a project officer for one or more contractor work sites.

                                           20 

Additionally, the theater project officer can handle any administration issues that may be
beyond the project officer abilities.

Project Officer
Each country has a designated project officer who has the responsibility for the overall
surveillance of the CFT program work sites within that country. The project officer is
designated by the requiring activity and receives a delegation from DCMA. Each project
officer delegates authority to the alternate project officer for individual sites within
his/her country of authority. Project officers also are responsible for compiling monthly
CFT Form 104 reports that indicate manning assigned and authorized, number and types
of inspections performed, and any corrective action reports. The project officer sends the
compilation of these reports to the theater project officer.

Alternate Project Officer
The project officers delegate alternate project officers for each individual site within each
country. At some locations in Afghanistan, Iraq, and Kuwait, the CFT contractor work
sites do not have on-site project officers so the alternate project officer performs the
duties of a project officer at those work sites. For the purposes of our report, we refer to
project officers and alternate project officers collectively.

                               Oversight Reporting Structure


                                         1st TSC
                                        Fort Bragg


                                     Theater Project
                                     Officer (Kuwait)



                     Kuwait                Iraq               Afghanistan
                     Project              Project               Project
                     Officer              Officer               Officer


                  Kuwait Sites           Iraq Sites          Afghanistan
                    Project               Project            Sites Project
                    Officer               Officer               Officer




Contract Management Plan
The CMP provides general information and specific guidance to project officers and
QARs on how to monitor contractor performance at CFT work sites. The CMP describes
                                             21 

the duties that assure the contractor complies with the contract terms and protects the 

interests of the Government. The CMP also discusses the relationships between project 

officers, QARs, and contractors, while identifying standards of conduct.



Duties of the project officer identified in the CMP include: 

 signing contractor Certificates of Service to certify Government receipt of services; 

 coordinating between contractor and ACO for approval of contractor purchases, 

   overtime, and personnel travel; and
 coordinating between the contractor and the CFT Program Office or the ACO for
   approval of contract changes.

Duties of the QAR identified in the CMP include: 

 reviewing quality and safety standards, technical manuals, and site-specific guidance 

   of the Government and contractor;
 identifying safety items and characteristics requiring 100 percent surveillance;
 preparing reports to evaluate contractor work and compliance with standards; and
 maintaining Government inspection and quality assurance files.

Quality Assurance Surveillance Plan
The U.S. Army Central Command developed a QASP to establish quality assurance
measures for rotary-wing aircraft maintenance activities located in Southwest Asia. The
QASP states the QAR is responsible for identifying the processes that require evaluation.
It also states that the QAR is responsible for validating the contractors’ work and
establishing procedures that are in compliance with the contract and performance work
statement. The QASP also establishes that the QAR will conduct monthly evaluations
utilizing an internally developed checklist that evaluates the contractors’ work
performance based on the tasks performed at maintenance locations. Although the 1st
TSC assumed responsibility for the program in February 2009, the U.S. Army Central
Command QASP remains in effect for the current task order.




                                           22 

Appendix D. Management Comments on CFT
Reporting and Our Response
The 1st TSC provided responses to specific areas in Finding A regarding measures of
contractor productivity, rework, and manning requirements. The 1st TSC Aviation
Maintenance Officer in Charge did not agree with the statement that “Officials from
1st TSC stated that CFT sites do not report completed units consistently.” The officer in
charge stated that this statement was false and that the “units” identified in the draft
report are work orders and scheduled inspections, which require a non-standard amount
of labor hours to complete. The officer in charge stated that all work orders are tracked
by the project officers and QARs at the individual support unit level, but there is no
requirement for 1st TSC to track work orders; the officer in charge also stated that DOD
Office of Inspector General personnel would need to visit the individual units to perform
analysis of individual work orders.

Additionally, the officer in charge indicated that the statement “Personnel at 1st TSC
attributed this difference in output to the inconsistent reporting of completed units” was
false, and stated the discrepancy between the two sites is due to the fact that “completed
units” refers to work orders, which can be for various types of repairs that require large
differences in man hours to complete. For example, a maintenance work order could be
two hours for a relatively routine task; however, the time required to complete a work
order for a phased maintenance inspection can be up to 2,000 hours. Currently, the
contractor’s performance is measured against phased maintenance inspection times
outlined in the performance work statement and reported on the CFT Form 104 sent to
the CFT Program Office and DCMA.

The officer in charge also stated that QARs complete and submit reports of rework,
which are maintained by the Theater QAR for historical documentation purposes. As for
manning requirements, the officer in charge stated that they are determined by the
Combatant Commander’s needs and each unit that arrives in theater has a different level
of experience and skill set. For example, some units require minimal augmentation
because they arrive with 100 percent manning with the required skilled and experienced
personnel, yet some units arrive at less than 100 percent manning and may lack specific,
necessary experience and skill sets. The officer in charge stated that these are major
factors influencing the required contractor manning levels.

Our Response
We agreed and removed existing language from the draft report regarding measures of
contractor productivity and contractor manning.




                                            23 

Air Force Oklahoma City Air Logistics Center, Contract
Field Team Program Office Comments




                                    DE1'ARTME rr OF THE AIR t' ORCE
                     HEADQUARTERS OKLAHOMA CITY AIR LOGISTICS CENTER (AFMC)
                               TINKER AIR FORCE BASE OKLAHOMA




       MEMORANDUM FOR INSPECTOR GENERAL DEPARTMENT OF DEFENSE

       FROM : OC-ALC/CA

       SUBJECT: Repair Imd Maintenance Contracts for Aircraft Supporting Coalition Forces in
                Afghanistan, Iraq, and Kuwait (Project No. D2008·DOOOLH-0249.000)

       I . Comment s are attached for the subj ect draft. audit report.




                                                               JOHN J. OVER
                                                               Executive Director
                                      Click to add JPEG file
       Attachment:
       Comments on subject draft audit report


       cc:
       AFPEO/CM
       AFMC/PK
       AFMC/A4




                                                                      24


Recommendations for B.

Recommendation. page 16. B 1: We recommend that Commander, Air Force
Oklahoma City Air Logistics Ce nter Contract Field Team Program Office ensure that all
project officers and quatity assurance representatives have completed the required
Contract Field Team training prior to assuming their duties.

~~QD.~~~£!!J"-,. lThe initial SWA Ouality Assurance          Rllle.pr..e..sllle.nt..alllti.ve..s.(.oIlA.R.slII).I.or
                          training prior to assuming duties (
                        see attachment 1).

Corrective Action: In Aug 09 , the eFT Deputy Director led a team on the Kuwait/Iraq
conference to train PO/QARs in the region . All Project Officers (POs)/QARs we re invited
to the Kuwait and Iraq confe rence to complete Phase II training. The Program Office
had been attempting to obtain entry into the CENTCOM AOR for over one year in order
to train the newly appointed POS/OARs, and the first window of opportunity was Aug 09.

A new strategy to hold pre-deployment train ing sessions was implemented in Oct 2009 .
On 14 Oct 09 an Afghanistan pre -deployment training session/CFT co nference was
held in Georgia for personnel deploying to Afghanistan to ensure all POS/OARs
rece ived Phase II training. Another pre-deployment training session/CFT conference is
scheduled in Dec 09 for new POS/OARs deploying to lraq/ Kuwa~ .
                            Click to add JPEG file
A new information technology system called the CFT Control Panel is currently in
development that will assist the CFT Program Office with tracking the srte POs/OARs
and completion of their training . A quality assurance representative in the CFT Program
Office has been assigned to ve rify every CFT PO/OAR has both Phase I and II Training
certificates on file and to ensure any PO/OARs that do not have both certificates on file
are trained and certificates are on file for 100% of personnel by 30 Dec 09.

Recommendation B 2: Track training of all project officers and quality assurance
representatives to ensure they rece ived the required training prior to assuming their
oversight responsibilities.

Response: Concur. The CFT Program Office does keep records of all Phase I and
Phase II Training certificates . The policy in the office is that no new task orders shall be
awarded until after the PO/OAR complete Phase I and Phase II training (see attachment
2).

Corrective Action: This policy will be incorporated into AFMCI 21-141 upon the next
re-write in the next year. The difficulty is primarily in turn-over of POS/OARs during a
previously awarded Task Order. The implementation of the CFT Contro l Panel that will
provide an effective tool for tracking any turnover of pas/OARs so that training can
immediately be provided .




                                                         25


Recommendatio n 83 : Update Contract Field Team training programs to include
detailed methods for valida ting contractor hours billed.

Respo nse: Co ncur.

Corrective Actio n: Detailed information on how to va lidate contracto r hours billed will
be added to the official eFT Phase I Training by 30 Dec 09.




                                                        26


1st Theater Sustainment Command Comments

                                                                                                                                      Final Report
                                                                                                                                       Reference



                                                     DEI' ART M ENT OF Til E            A I~I\1Y
                                        m ':'\ 1XJ1 \RTt.RS, I ~I Sl sr \ I"IE'\' T CO \I\ I n l) {I In H l ltl
                                                    r ORl 8 k .\ G(;. "OK III (," \R OI I" \ 21010
                   U"., TO
                   oI;n l ' -111)\ 01




      ACEN-TSC-DMC-MRB                                                                                            5 No,cmber 2009



      FOR Inspector Genera l IJepartmenl of Defense

       U13JECT: Repair and Maintenance Contracts for Aircraft Supporting Coalition Forces in
      Afghanistan. Iraq. and Kuwa it (Project No. D2008-DOOOLlI-0249.000)


      I. PUR POSE: Rcsponse to DODIG droll rcpon Project No. m008-DOOO! 11-0249.000.

      2.       Ilccomn1 cnd ation. ml gc 19. A.2 : We recommend that the Commander, 1st Theuter
           Sustaimncnt Command coordinate with Anny Contracting Command to detennine whether
           altematc contract types. such as a mix of cost and fixed price. \\Quld hi,; more appropriate for
           the procurement of aircrart repair services and whether future acquisitions for Ih..:sc services
           \\ ill exceed $1 billion and requirc rc\iew b) the Undc r SecrelaI') of Defensc for Acquisition.
           Technology. and Logistics.

      3.                                    Click to add JPEG file
              Res ponse: Purtiallv Co ncur. rhc contract that began on 6 Feb 09 is current I)
           approxi mately 25% FFI) which is a 5ignilil:ant improvement from the previous O~O FFP. The
           current mixture of FFI' and T&M con tractor positions gives the go,\emlllent the nexibility to
           adjust work hours according to workload for more emcient gOliernment spending. FFP Usage
           wi ll be maxim ized to the fullest exten t possible. Ilo\\I!\er. in a wanonc it is diiTicult to
           predict every maintenance action that will be required as the extreme conditions and usage
           drivc unexpected maintenance requirclllcllIs: Ihercfore some pcrccnlnge ofT&M is expccteuto
           remain. The current FF P positions do not a\1o\\ the government the flexibilit} to decrcase
           spending according to work load. The contract type W'JS analyzed ror this specific task order
           and the most nppropritlte type was selected and properly justified in accordance \\ilh
           po licy/regu lation. See attached Dctcnninution and Findings.
           1~I I SC will coordinmc \ 1, ith Ann} Contracting Command if future acquisitions lor these
           scf\ices \\ill exceed $1 bi llion and will require rc\-ic\\ by the Under Secretary of Defense lor
           Acquisition. Techno logy, and Logistics.

      4.     Measures ofCn nlrnctor Producti\'ih . p.l gt 6: In this paragraph it states. ··OniciaJ..; from
           1st rsc stated that CIT siles do not report completed unils consistently."

      5.      Res ponse: No n·Concu r. This is a false statement.
           the only two personnel consuhcd by the DODIG Tc;:ml .                                                                    Deleted Report
           correspondence was this statcmcnl c\'cr made.                                                                            Language on page 6
           "Units" as it is uscd in thi s documcnt arc maintenance \. . ork orders to correct an aircrart
           deficiency or to conduct a scheduled inspection and arc not standarJil"ed. All work orders :Ire
           completed and traci-ed by the individual supportcd unit. fherl.! i$ no rcquir~mcnt ror this
           com mand to troek or maintain mail1lcnanec work orders of nn individual unit. Thcre arc
           "oversight offic ials·· at the unit Ic\cl: I)rogram Omee~ and Qualit) Assurance
           Representatives. To pcrfonn analysis of the ind ividual work orders the DODIG Team would




                                                                                        27


                                                                                                                Final Report 

                                                                                                                 Reference





i\CEN-TSC-DMC-MRB
SUBJECT: Repair and Maintenance Contracts for Aircmfl Supponing Coalition Forces in
i\fghonistan, Imq. and Kuwait (project No. D2008-DOOOLlI-0249.000)

     hll\'e to visi tlhe individual units. This Audit Terun did not visit an)' sites particular to the Task
     Orders outlined in this document.

6.      Measures o(Co ntractor l'roducti"ih, mlge 6: In this paragmph it stales. "Tilble 2 renew;
     data extracted from an L-3 Vertex monthly report of completed units. labor hours billed, and
     manning assigned 10 each CI-,' site. In addition 10 this inlonnation. we calculated produClhil)
     ratios to enable basic comparisons between each CFr site. ror example. controctors in Mosul.
     Iraq. completcd 10.62 units per contractor, whereas in Baghdad. Iraq. contractors only
     complcted 0.29 units per contractor. I)crsonncl at 1st TSC attributed this difference in output
     to the inconsistent reponing of c()mpl~tc..'<IlInils."

7.      He~non ~e: Non-Co ncur. This is a false statement.                                     wcrc
     the only two personne l consulted by the DODIG I cam i
                                                                                                              Deleted Report 

     correspondence ,\as thi s statement ever made.                                                           Language on page 6 

     It is nO( inconsistent reponing that creates the disparity betwccn the two sitcs. As defined in
     thi s section. a "un iC' is a maintenance work order. '!llC maintenance \\ork order mo) he for a
     relative ly routine iask that may take 2 man hOllrs of labor to complete. On the other hand. lhe
     "unit"' rna) be a single work order for a Phase Maimenance Inspection (PM!). This I)MI may
     take 2.000 man hours to complete. Certain sites may conduct I)Mls on a regular basis.
     Combatant Units use a hub and spoke maintcnrulcc concept. They \\ill have a base or hub
                                Click to add JPEG file
     maintenance facility that pcrfonns most oflhe units "hea,,)" maintenance. lIeavy
     maintenance is "hen extensivc maintenance is being periomlcd. such as a PM!. The unit's
     outlying Forward Operating Ba..;;cs (FOBs) arc limitcd on facilities and special tooling and
     perfoml less intense maintenance procedures.
     The current Task Order measures the contmctor's perlonnance against PMI metrics outlined in
     thc PWS and is rccorded on the monthly eFT 104 repons that nre sent to thc CFP I'rogmm
     Office and DCMA.

8.     Rework. "nee 8: The project ollicer must tr:'lck all rework. by the number of hours and skill
     classification requircd to corrcct the discrepancy. thc rcwork should be annotated on thc "CI' r­
     Rcpon of Rework" foml signcd off b) thc contractor and the Governmcnt reprcscntative. the
     eFT-Rcport of Rc\\ork fonn will be attached to the month I) projcct officer c,aluntion and
     sent to the Contract Ad mini strotion Office. and the DOD \\ ill pay for rework hours and
     material but the contractor may not charge a profit.

9.     Response : Co ncur. Program Ollicers and Quality Assumnce Representatives do complete
     and submit rcquired rework ronns \\hen applicablc. Il istorical docul11cmuuon is kept with thc
     Theater QA R.

10. Ma nnin g Requiremenls. page 7: DCMA oflicials stated thnt it was the responsibility orlhe
  requiring activi ty 10 detennine thc numbers ofcontmclors needed nl specific locations.
  OOicials at 1st 'I SC stated that manning Ic\cls arc rcquestcd based on operations tempo or
  cumulati\e and projected fligh t hours.
II. Response: CO llcur with Comment, Manning requirements vary according to the                               Deleted Report 

  Combalant Conunnnder"s need. Lach unit that enters the Theater of Opcration ,aries in                       Language on page 7 

  MTOE manning and cxperiencc. It is Lhc Combatant Commandcr's dccision as to the level of
                                               2




                                                                 28

ACEN-TSC-DMC-MRB
 UBJECT: Repair and Maintenance Contracts for Aircraft Supporting Coalition Forces in
Afghanistan. Iraq, and Kuwait (Project No. m008-DOOOLlI-0249.000)

  contractor augmentation 10 successful I) accomplish the unit"s mission requirements. Some
  units arrive in Theater close to or at 100% strength with the proper amount or c:-..pcricncc and
  skill selS. These units \\i ll requi re less augmentation. Some units arri\c in Theater aI 70%
  manning or below with a lack ofcxpcricncc and skill sets. These units \\ill require more
  uugmentUlion. This is a major contributing factor in contractor manning levels.
12. RECOMMI:. DATION: DODIG consider thi s response and incorporate responses into the
final report.




                                                    " rr bj 10J
                                              tf;.~L'~        tARI)        {p
                                                                                  Ij
                                              MAJ. AV
                                              1'1 TSC Aviation Mnilucilancc 01('




                            Click to add JPEG file




                                                3




                                                            29


Defense Contract Management Agency, Ohio River Valley
Comments
                                                                                                                   Final Report
                                                                                                                    Reference



                                 DEFENSE CONTRACT MANAGEMENT AGENCY
                                     AERONAUTICAL SYSTEMS DIVISION
                                           6350 WALKER LANE
                                       ALEXANDRIA, VA 22310-3241




   IN REPLY
    R£FER ro,   DCMAA-C                                                                    4 November 2009



                MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL DEPARTMENT OF
                                DEFENSE, PROGRAM DIRECTOR READINESS,
                                OPER ATlONS, AND SUPPORT


                SUBJECT: DoD- IG Draft Audit Report, ProjectD2008-DOOOLH-0249, Repair and
                         Main tenance Contracts fo r Aircrafl. Supporting Coa litio n Forces in
                         Afghanistan , Iraq, and Kuwait

                      This is in response to your October 9, 2009 request to provide comments on
                recommendations detailed in subject report.

                                          Click to add JPEG file
                Reco llIln endati on ALa: We recommend that the Commander, Defense Contract
                Management Agency Ohio River Valley (ORY) develop standardized measures of
                effectiveness for reporting contractor output and monitoring contractor efticiency .

                Res ponse: Nonconcur. This recommendation is beyond DCMA's scope of
                                                                                                                 Deleted
                responsibi Itty . The Performa.nce Work Statement (PWS) drives the contractual
                requirement s and defines the standards to monitor the productivi ty and effectiveness of        Recommendation
                the contractor. This informati on is tracked and reported by the Project Officer (PO) on         A.1.a
                the Contract Field Team (Crl') 104 form . The PWS is placed o n contract by the Program
                Office, but the standards themselves are developed by the customer. DClvlA understands
                that the South West Asia (SWA) customer is revising the m etri cs to make them more
                effective.

                Rl'COllllllt.'ndlition A . l.b: Require the lracking and processing of reports of rework hours
                and ensure that profit is not charged on rework .

                Rl'SpOnSl': Concur. DCMA will require project offic ers to submit rework according to
                                                                                                                 Renumbered
                the DCMA Contract Management Plan in paragraph 2-7. This requirement will also be
                re-emphasized in the Project Officer Qua lity Assurance Representative (POQAR)                   Recommendation
                training conducted by the Program Office. DCAA revi ews the contractor "s accounting             to A.1.a
                and labor reporting systems to ensure the contractor has proper procedures in place for
                charging rework ho urs. DCMA highlight the require ment with DCAA to ensure all
                systems are in place and accurately capturing these requirements. Estimated Completion
                Date 15 February 20 10.




                                                                          30


                                                                                                 Final Report 

                                                                                                  Reference






Recommendation A. I.c: Require fl oor checks to be perfo rm ed and reported in a fo nnat
that will increase oversight of contractor labor hour charg ing pract ices.

Response: Part ially C OUC UI', 'l1lC cUITent DCMA Contnlct M~magem ent Plan rcqu ires         Renumbered
fl oor checks be perfom1cd by the on-s ite Project Officer. This element will be addressed
                                                                                               Recommendation
at site visils and the annual cr-r conferences. DCMA ACO wilt request DCAA pt:rfonn
labor system reviews and on-site fl oor checks to increase oversight of labor hour charges.    to A.1.b
It should be noted lIud sixty percent of the cum:nt contracls are Time and Mate;:rial s with
the balance Finn Fixed Price. Completion date 30 January 20 10

Reconunend.tfion A.I, d: Conduct site vis its to Afghanistan, lr~tq, and Kuwait to
augment existin g oversight of requiring activities.

Response: Conclil', A recent trip by CfT PM and DCMA ORV personnel into Kuwait                 Renumbered
and Iraq took place from 17 August to 3 September 2009. Another trip to Afglumistan is         Recommendation
planned for the sprin g 201O. DCMA, as part of the Program Manager's South west As ia          to A.1.c
Conference, wi ll continue to visit Southwest Asia in th e fu ture. Th ere arc. however,
inherent constraints to these visits based on fundin g and site transportation.

ReeOllllllendllfio li A. t,e: Determine the benefit of implementing semi-autom ated
controls to ass ist manual controls in providing oversight.

                          Click to add JPEG file
Respo nse: Non('om'UI', 1bis recommendation is beyond DCMA' s scope of
responsibi lity. The need for these controls is under the purview of the Program Office
                                                                                               Deleted
and Senrice end user. At the present tim e there is no contractual requirement for these       Recommendation
automated sys tems to be utilized at the operational work sites. While the suggestion of       A.1.e
tlutomated proces ses may senre some benefit al pmticulur locations , these contractors are
often operat ing in a com1>..1t zone and in adverse conditions which limit automati on.

Please contact
additional




                                              MARIE A. GREENING
                                              Executive Director




                                                         31

                                                                                                           Final Report 

                                                                                                            Reference






DCMA Technica l Comm ents - 0 001(; J)rnft Re po rt: R£'pair 3nd M:lint ena nce Contrncts
for Aircr:aft Supporting COliUti on Forc('5 in Afgh:mistnn, 1....lq , a nd K uw :dt (project No.
I>2008-DOOOLH-0249.000)
                                                                                                         Deleted
Reference: Recomm end ati on A. I. :•• DI~.ft Re pol1 P:lge 12
                                                                                                         Recommendation
o eM}\. Technk:ll Comm enls: DCMA is not Slire that Olle "standardi zed" mctric can bc                   A.1.a
developcd. 111c Report 's meilsure ofefTectiveness (Pilge 6) is the filtio of units comp leted over
time as rdated to the number of cmployees at that location. The "unit" used in the tab le is a
sin gle maintenance work order, bur such orders can vary significanrly in both requirements ,md
complexity, resultin g in signifi cant variations in labor hours required. For example, a sheet
metal rivet work order may hike the contractor three hours, while a philse inspection work. order
may properl y take the conlr:lctor three weeks. In the IG 's ana lys is, each is considered a "unit ".
Nor does this evaluati on consider the type of aircraft. n AH-64 pache attack aircraft is
exponentially more complicated due to the v<lriolls electrica l :md annament systems limn a UH-
60 Bluckllawk aircraft, but ugnin, in the tub Ie. each is considered u "unit. ·' Finall y, the sUlue
repair or maintenruicc will vary in complexity and hours required by platfonn type. 'Jlms a
"unit " as charted 0 11 page 6 is not an accurate depiction of any perfonn ance measure. DCM A is
Ulmware of any w<ly to develop a standardized global measure of effectiveness.




                                                               32
